<html>
<title> - COMBAT MEDICAL BADGE</title>
<body><pre>[Senate Hearing 108-617]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-617

                          COMBAT MEDICAL BADGE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2003

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-847                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                 ARLEN SPECTER, Pennsylvania, Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
LARRY E. CRAIG, Idaho                JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
JIM BUNNING, Kentucky                JAMES M. JEFFORDS, (I) Vermont
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
LINDSEY O. GRAHAM, South Carolina    PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               ZELL MILLER, Georgia
                                     E. BENJAMIN NELSON, Nebraska
           William F. Tuerk, Staff Director and Chief Counsel
         Bryant Hall, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                             July 29, 2003
                                SENATORS

                                                                   Page
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............     1
Murray, Hon. Patty, U.S. Senator from the State of Washington....    14

                               WITNESSES

Novosel, Michael J., Chief Warrant Officer 4 (Ret.), M.O.H.......     1
    Prepared statement...........................................     3
Travers, John M., Chief Warrant Officer 5 (Ret.).................     5
    Prepared statement...........................................     6
Castleberry, William Frederick ``Fred''..........................     7
    Prepared statement...........................................     9
Le Moyne, Lieutenant General John M., Deputy Chief of Staff, G1, 
  U.S. Army......................................................    10
    Prepared statement...........................................    11

 
                          COMBAT MEDICAL BADGE

                              ----------                              


                         TUESDAY, JULY 29, 2003

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:10 p.m., in 
room SR-418, Russell Senate Office Building, Hon. Arlen Specter 
(chairman of the committee) presiding.
    Present: Senators Specter, Rockefeller, and Murray.

           OPENING STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Chairman Specter. Gentlemen, the Committee on Veterans' 
Affairs will now proceed. This afternoon, we will hear first on 
the issue of whether combat medical badges should be awarded to 
the brave men and women who participated in Dustoff missions in 
Vietnam, and then we will move ahead to health-related bills. 
At the outset, we are going to see a video presentation to put 
our hearing into focus. So we shall proceed with that at this 
time.
    [Video played.]
    Chairman Specter. Our first witness is going to be Mr. 
Michael J. Novosel. Mr. Novosel flew his first combat mission 
as a U.S. Army Air Corps B-29 pilot during World War II. When 
hostilities broke out in Vietnam, Lieutenant Colonel Novosel 
wanted to return to combat. They had too many of his rank, but 
he was so anxious to join that he returned to the Army as a 
warrant officer and began flying helicopters.
    On October 2, 1969, he and his crew saved 29 soldiers 
during a mission that totaled 11 hours in the air. In 
recognition of his valor and devotion to duty, he was awarded 
the Medal of Honor at age 46. He was the Army's oldest Medal of 
Honor recipient in the Vietnam War.
    Thank you very much for joining us, Colonel. The floor is 
yours.

          STATEMENT OF CHIEF WARRANT OFFICER 4 (RET.) 
                   MICHAEL J. NOVOSEL, M.O.H.

    Chief Warrant Officer Novosel. Thank you, Senator. I 
appreciate those kind words. You sort of took the sails out of 
what I have to say now.
    Good afternoon. My name is Michael J. Novosel. I am a 
retired Air Force and Army aviator. I was a military aviator in 
three wars and saw combat in two. Thirty-two years ago, the 
parent body of this committee, the Congress of the United 
States, bestowed upon me the honor that has defined so much of 
my life, the Congressional Medal of Honor.
    My wartime service ranges from the airfields of Tinian and 
the Marianas, flying B-29s in the Second World War, to the rice 
paddies of Vietnam, flying Hueys on medivac Dustoff missions. 
During those many years, I witnessed the best and the worst of 
humankind.
    One cannot be exposed to years of war and combat without 
being aware of the dedication, selflessness and bravery of 
those who do the fighting and the dying. Without a doubt, some 
of the most heroic people were the Dustoff men who rode with me 
in my medivac helicopters in Vietnam. I was honored for my 
efforts while commanding one of the air ambulances, but those 
young men behind me, in back of me, caring for the wounded and 
saving lives, were the real heroes.
    To appreciate the sacrifices they made, one has to 
understand the magnitude and the intensity of the task. These 
medics, armed with stethoscopes, blood and IVs, rather than 
guns and ammunition, managed to save hundreds of thousands of 
lives. Their operating table was the litter, sometimes the 
flight deck, awash in blood.
    They kept men with traumatic amputations, sucking chest 
wounds, bullet-riddled bodies alive; finding the collapsed vein 
to give them the sorely needed transfusions. Mouth-to-mouth 
resuscitation was administered, regardless of race or 
nationality. The medics often knew their responsibilities; 
giving life-saving medical care to the wounded until they were 
delivered to hospitals for advanced treatment. They were under 
intense physical and mental pressure.
    When they flew, they put their lives on the line to save 
others, and 55 of them did not return. Many were killed while 
tending to the wounded, others died in crashes caused by 
attempts to rescue under impossible weather conditions. They 
are memorialized on the black marble wall by the Reflecting 
Pool, along with 58,000 others.
    What sets them apart, at least to those who served with and 
knew them, is the singular sense of mission that they 
displayed. Yet their efforts have not been recognized. They 
have not received the honor that they so richly deserve.
    For years, American soldiers who carried a gun into battle 
were authorized to wear the Combat Infantry Badge. Eventually, 
it was decided that those equally heroic men who went into 
battle without a gun, but with a medical bag, would be 
authorized to wear the Combat Medic's Badge.
    However, the Medic's badge award criteria is written in 
language which precludes Dustoff medics from being eligible for 
the award. Overly strict interpretation of the regulation 
produced this dichotomy. The regulation requires the Medic to 
be ``assigned to an infantry unit.'' Had the regulation read 
``assigned or supporting an infantry unit,'' that problem may 
have been overcome. Dustoff regularly worked with infantry 
units, but its personnel were assigned to aviation units, not 
infantry units.
    The regulation covering the award of the CMB was written at 
a time when Dustoff did not exist. Those who administer the 
regulation have not adjusted their interpretation of that 
regulation to coincide with the realities of the changing 
nature of war. Dustoff is a product of that change. The Dustoff 
personnel pioneered and developed the concept of aeromedical 
evacuation.
    In Vietnam, they regularly went into the thick of battle to 
rescue wounded soldiers. Dustoff crews did this, knowing they 
would be subjected to enemy fire, yet the medic and the crew 
chief left the helicopter to get the wounded. It was not 
uncommon to see bullets hitting the rice paddies around them 
while the medic and the crew chief retrieved the wounded, but 
they never wavered.
    I witnessed the heroism of medics and crew chief as they 
performed their duties. I cannot recall a single instance of a 
Dustoff crewman seeking refuge from enemy fire, shirking his 
duty or ignoring the plight of their brothers. I do recall, 
however, a continued commitment to the mission: easing the pain 
of the wounded, relieving them of the trauma of battle and 
rescuing people and saving lives.
    My Dustoff crew--when I flew that mission on October 2, 
1969--were expecting no reward, but the Army and the Congress 
presented me with the Medal of Honor. I am aware that the Army 
writes regulations; that Congress does not. Therefore, I ask 
this committee and this Congress to honor the Dustoff Medics 
and direct the Department of Army to change this regulation and 
make those people eligible for the Combat Medics Badge. No 
group of individuals can be more worthy of that badge.
    It would be a beautiful gesture if the Department of Army 
were to posthumously award the first Combat Medic Badges to 
those 55 brave men who are memorialized on the wall and who 
lost their lives saving others.
    I thank you for your time and attention.
    [The prepared statement of Chief Warrant Officer Novosel 
follows:]

         Prepared Statement of Chief Warrant Officer 4 (Ret.) 
                       Michael J. Novosel, M.O.H.

    Good afternoon Senator Specter, members of the Committee and 
Honored Guests:
    My name is Michael J. Novosel; I am a retired Air Force and Army 
Aviator. I was a military aviator in three wars and saw combat in two. 
Thirty-two years ago the parent body of this Committee, the Congress of 
the United States, bestowed upon me the honor that has defined so much 
of my life; the Congressional Medal of Honor.
    My war time service ranges from the airfields of Tinian and the 
Marianas, flying B-29s in the Second World War to the rice paddies of 
Vietnam, flying Hueys on Medivac (Dustoff) missions. During those many 
years I witnessed the best and the worst of human kind.
    One cannot be exposed to years of war and combat without being 
aware of the dedication, selflessness and bravery of those who do the 
fighting and dying. Without a doubt, some of the most heroic people 
were the Dustoff Crewmen and Medics who rode with me in my Medivac 
helicopters in Vietnam. I was honored for my efforts while commanding 
of the air ambulances, but those young men behind me, caring for the 
wounded, and saving lives, were the real heroes.
    To appreciate the sacrifices they made, one has to understand the 
magnitude and intensity of the task. These Medics, armed with 
stethoscopes, blood and IV's rather than guns and ammunition, managed 
to save hundreds of thousands of lives. Their operating table was the 
litter; sometimes the flight deck awash in blood. They kept men with 
traumatic amputations, sucking chest wounds, bullet riddled bodies 
alive; finding the collapsed vein to give them the sorely needed 
transfusions. Mouth to mouth resuscitation was often administered 
regardless of race or nationality. They knew their responsibilities; 
giving life saving medical treatment to the men in their care until 
they were delivered to hospitals for more advanced treatment. They were 
under intense physical and mental pressure.
    When they flew they put their lives on the line to save others, and 
fifty-one of them did not return. Many were killed while tending to the 
wounded; others died in crashes caused by attempts at rescue under 
impossible weather conditions. They are memorialized on the black 
marble wall down by the Reflecting Pool, along with 58,000 others.
    But what sets them apart, at least to those who served with and 
knew them, is the singular sense of mission that they displayed. Yet 
their efforts have not been recognized; they have not received the 
honor they so richly deserve.
    For years American soldiers who carried a gun into battle were 
authorized to wear the Combat Infantryman's Badge. Eventually it was 
decided that those equally heroic men who went into battle without a 
gun, but with a medical bag, would be authorized to wear the Combat 
Medic's Badge.
    However, the Medic's badge award criteria is written in language, 
which precludes Dustoff medics from being eligible for the award. 
Overly strict interpretation of the regulation produces this dichotomy. 
The regulation requires the Medic to be ``assigned to an infantry'' 
unit. Had the regulation read, ``assigned to or supporting an 
infantry'' unit there would be no problem with the award of the CMB. 
Dustoff regularly works with infantry units, but its personnel are 
assigned to aviation units, not infantry units.
    The regulation covering the award of the CMB was written at a time 
when Dustoff did not exist. Those who administer the regulation have 
not adjusted their interpretation of it to coincide with the realities 
of the changing nature of war. Dustoff is a product of that change. Its 
personnel pioneered and developed the concept of aeromedical 
evacuation. In Vietnam they regularly went into the thick of battle to 
rescue wounded soldiers. Dustoff crews did this, knowing they would be 
subjected to enemy fire, yet the medic jumped off the helicopter, got 
to the wounded and proceeded to load the casualties. It was not 
uncommon to see bullets hitting the rice paddies while the medic tended 
to the wounded, but he did not waver.
    I witnessed the heroism of my medics as they performed their 
duties. I cannot recall a single instance of a Dustoff medic seeking 
refuge from enemy fire, shirking his duty or ignoring the plight of his 
brothers. I do recall, however, a continued commitment to the mission; 
easing the pain of the wounded, relieving them of the trauma of battle, 
rescuing people and saving lives.
    My Dustoff crew and I flew the mission of 2 October 1969 expecting 
no reward, but the Army and the Congress presented me with the Medal of 
Honor. I am aware that the Army writes the regulations; that Congress 
does not. Therefore, I ask this Committee and this Congress to honor 
the Dustoff Medics and direct the Department of the Army to change that 
regulation, and make them eligible for the CMB. No group of individuals 
can be more worthy of that badge. I further ask that the Army expedite 
the matter and plan to present the awards by November 11--Veterans Day. 
It would be a magnanimous gesture for the Department of Army 
representative to posthumously award the first Combat Medic Badges to 
those 51 brave men who are memorialized on the Wall, and lost their 
lives saving others.
    I thank you for your time and attention. I will make myself 
available to any questions the Committee might have for me.

    Chairman Specter. Thank you very much, Colonel. May the 
record reflect that Michael J. Novosel is the author of a book, 
``Dustoff,'' that outlines the gallant service of combat medics 
in Vietnam.
    Our next witness is Mr. John M. Travers. He enlisted in the 
Army in 1969, graduated from flight school the following year, 
and served in the Republic of Vietnam in the 82nd Medical Unit. 
Mr. Travers separated from active duty in 1972. He was born in 
Harrisburg, Pennsylvania, attended schools there and graduated 
from Penn State in 1980, Summa Cum Laude, with a degree in 
education. In his earlier days, he had been an All Star--All 
State--basketball player.
    Welcome, Mr. Travers. Thank you for joining us, and we have 
limited the time to 3 minutes on opening statements.

          STATEMENT OF CHIEF WARRANT OFFICER 5 (RET.) 
                        JOHN M. TRAVERS

    Chief Warrant Officer Travers. Thank you, Senator.
    Good afternoon, and to other members of the committee.
    It is an honor to be here before you today, and I speak on 
behalf of not only those who served in Dustoff, but the 
literally hundreds of thousands of infantry soldiers who owe 
their lives to the Dustoff crews. It is an honor to lead such a 
righteous fight with the support and assistance of some very 
sincere people, and many of them are here today, and I thank 
them for their efforts.
    I had the very great privilege to serve as a Dustoff pilot 
during the Vietnam War, with the bravest group of men that I 
have ever known. Typical of them was Kevin Donaughue, who is in 
this room today, a medic who I personally watched jump from my 
aircraft, under extremely intense fire, and run through a mine 
field to retrieve a wounded soldier and bring him back to our 
aircraft, all the while AK-47 rounds were exploding around him. 
That picture still plays in my mind over 30 years later and 
will never diminish.
    No rational man would have done what Kevin did that day. I 
witnessed what love of your fellow soldier can inspire a man to 
do. You must understand, though, that this was not a singular 
occurrence, but rather a daily ritual that gained the 
admiration and love of those on the ground for the call sign 
``Dustoff.''
    It was those experiences that drove me to start this 
campaign to right an injustice that has gone on too long. I 
really believe, as God is my judge, that if the authors of the 
Combat Medic Regulation had known that in the future there 
would be wars with nonlinear battlefields, where helicopters 
would become the means to rescue wounded soldiers from the 
battlefield, they would have put Dustoff medics at the top of 
the list of defined recipients.
    I am consistently frustrated by the irony that our Army is 
allowed a 58-year-old regulation to remain intact, when all of 
its battle doctrine has been updated to reflect the modern 
waging of war. I suggest that when one reduces this fight to 
that, its simplest level, it does not make any sense.
    Those of us who served our country as Dustoff crew members 
in Vietnam did so to the best of our ability. When we came home 
to an unaccepting America, there were no parades and few words 
of appreciation, but we learned to accept that because we had 
made a difference to our fellow soldiers, and that was the 
ultimate difference, the difference between life and death.
    We went on with our lives and asked for very little, if 
anything, and the experience has made us all a close-knit 
family. Ironically, as the years have passed, we have seen what 
only can be described as a slap in the face to the Dustoff, 
from an Army that we served so loyally.
    After Desert Storm, the chief of staff of the Army waived 
the requirement for the Combat Medic Badge and allowed it to be 
awarded to medics in armor and ground cavalry units. Now, let 
me be perfectly clear. I am glad those medics got that award, 
and they earned that award, but what I cannot understand is why 
the Army would not take a look at the Dustoff medics of 
Vietnam, who did their duty for a year, day in, day out, under 
fire, and to be considered not qualified. The numbers speak for 
themselves. In Vietnam, Dustoff flew thousands and thousands of 
missions and saved hundreds of thousands of lives. Is it any 
wonder that so many Vietnam veterans feel abandoned and 
forgotten by the very institutions they pledged to defend with 
their lives?
    On a black piece of granite just a few short blocks from 
here appear the names of 55 of our brother Dustoff medics and 
over 200 Dustoff crew members, pilots and crew chiefs. Perhaps 
those within the Army who oppose this award should take a walk 
some lunch hour along that wall and tell me that Dustoff medics 
did not earn the Combat Medic Badge. I would be happy to meet 
them there face-to-face and discuss and, if necessary, debate 
that notion. I suspect that those within the Army that would 
oppose this award have never been to that wall, which is one of 
the reasons why we brought a piece of it here today to you, 
Senator, in the form of those etchings of the 55 names.
    We are here before you today, to ask no favors or anything 
for ourselves, but we have earned the right to demand the Army 
do what is morally correct. Every day my medics grow older. 
Indeed, some have already died unrecognized and unrewarded. One 
of my best friends is now dying in Indianapolis of cancer. I 
humbly, respectfully and firmly beg this committee to do 
whatever has to be done to correct this, since the Army seems 
unable to itself.
    Thank you for your time and patience.
    [The prepared statement of Chief Warrant Officer Travers 
follows:]

  Prepared Statement of Chief Warrant Officer 5 (Ret.) John M. Travers

    Good afternoon Senator Specter and members of the committee.
    It is an honor to come before you today to speak on behalf of not 
only all those who served in Dustoff, but also the literally hundreds 
of thousands of men who are alive today because of Dustoff medics. It 
is also an honor to lead such a righteous fight with the support and 
assistance of some of the most sincere people a person can ever know: 
the people who are here with us today--and I take this brief moment to 
thank them publicly, on behalf of every Dustoff medic that ever was. 
Thank you very much, all of you.
    I had the very great privilege to serve as a Dustoff pilot during 
the Vietnam War with the bravest group of men I have ever known. 
Typical of them was Kevin Donaughue, a medic who I personally watched 
jump from my aircraft, under extremely intense fire, and run through a 
mine field to retrieve a wounded solider and bring him back to our 
aircraft, all while AK 47 rounds exploded around him. That picture 
still plays in my mind over 30 years later, and will never diminish. No 
rational man would have done what Kevin did that day; I witnessed what 
love of your fellow solider can inspire a man to do. You must 
understand this was not a singular occurrence, but rather a daily 
ritual that gained the admiration and love of those on the ground for 
the call sign ``Dustoff.''
    It was those experiences that drove me to start this campaign to 
right an injustice that has gone on too long. I believe as God is my 
judge that if the authors of the Combat Medic Regulation had known that 
in the future there would be wars with non-linear battle lines, where 
helicopters would become the means to rescue wounded soldiers from the 
battle field, they would have put Dustoff medics at the top of the list 
of defined recipients. I am constantly frustrated by the irony of our 
Army allowing a 58-year-old regulation to remain intact when all of its 
battle doctrine has been updated to reflect the modern waging of war. I 
suggest that when one reduces this fight to that--its simplest level--
it just doesn't make any sense, does it?
    Those of us who served our country as Dustoff crewmembers in 
Vietnam did so to the best of our ability. When we came home to an 
unaccepting America, there were no parades and few words of 
appreciation, but we learned to accept that because we knew we had made 
a difference to our fellow soldiers, and that it was the ultimate 
difference, the difference between life and death. We went on with our 
lives and asked for very little, if anything. And the experience made 
us a very close-knit family.
    Ironically, as the years have passed we have seen what can only be 
described as a slap in the face by the Army we served so loyally. After 
the Desert Storm War the Chief of Staff of the Army waived the 
requirement for the combat medic badge and awarded it to medics in 
armor and ground cavalry units; in fact, over 3000 CMB's were awarded 
for a 100-hour war. Now let me be perfectly clear on this: I am glad 
the medics of Desert Storm received these awards, but cannot help but 
question why the Dustoff medics of Vietnam--who did their duty for a 
year, day in and day out, under fire--are not qualified? The numbers 
speak for themselves, and the Gulf War pales by comparison: in Vietnam 
Dustoff flew thousands and thousands of missions, and saved hundreds of 
thousands lives. Is it any wonder so many Vietnam vets feel abandoned 
and forgotten by the very institutions they pledged to defend with 
their lives?
    On a black piece of granite just a few short blocks from here 
appear the names of 55 of our brother Dustoff medics and over 200 
Dustoff crew members, pilots and crew chiefs included. Perhaps those 
within the Army who oppose this award should take a walk some lunch 
hour along that WALL and then tell me Dustoff medics did not earn the 
Combat Medic Badge; I would be happy to meet them there--face to face--
to discuss and, if necessary, debate that notion. I suspect those who 
oppose this award have never been to that Wall, which is one of the 
reasons we brought it here today, in the form of the etchings of those 
55 names.
    We who are before you today ask no favors, nor anything for 
ourselves. But we have earned the right to demand the Army do what is 
morally correct. Every day my medics grow older; indeed, some have 
already died unrecognized and unrewarded by a bureaucracy that has all 
the inertia of the coffins they have been buried in. I humbly, 
respectfully and fervently beg this Committee to do whatever has to be 
done to correct this, since the Army seems unable to itself. Thank you 
for your time and patience.

    Chairman Specter. Thank you, Mr. Travers.
    Our next witness is Mr. William Fredrick Castleberry. Mr. 
Castleberry joined the Army at age 17, became a drill sergeant, 
and then was sent to Vietnam. On his 21st birthday, he was 
critically wounded in action by a rocket-propelled grenade. He 
lost his right arm below the elbow and his left leg above the 
knee. He also lost the use of his left hand, and partially lost 
the use of his right hand. He was rescued on the battlefield by 
a Dustoff crew. The members of which were also wounded while 
rescuing him.
    Thank you for joining us, Mr. Castleberry. We look forward 
to your testimony.

       STATEMENT OF WILLIAM FREDRICK ``FRED'' CASTLEBERRY

    Mr. Castleberry. Good afternoon, Senator Specter, Senator 
Murray.
    Please know that I am extremely honored to be here. In 
1965, while stationed at Fort Lee, Virginia, I visited our 
Nation's Capitol. At that time, I never dreamed I would someday 
visit here on Capitol Hill. However, once I heard the details 
about this hearing, I knew I had to be here. I thank you for 
the privilege to testify before a committee as important as 
this one.
    The Fred Castleberry that went to Vietnam was much 
different than the one that came home. The injuries that my 
body suffered are plain to see. I lost my right arm, my left 
leg; I lost the partial use of my left--my other arm and my 
other leg. However, I am not here to talk about Fred 
Castleberry any more than I have to. What I am here to talk 
about is the fact that I am here at all and how I got out of 
that bloody jungle on the day I turned 21.
    Prior to going to Vietnam, I was a drill sergeant. I tried 
to prepare the recruits for what they would face in war. But 
like anyone else who has never been in combat, I truly did not 
have any clue. There is no manual that can prepare you for the 
paralyzing fear that grips you when bullets go whizzing by your 
head. There is no veteran's account that can accurately 
describe what it is like to watch the life drain from someone 
who just moments before was so young and full of life.
    In combat, everywhere you look, there is death and 
destruction. Unfortunately, it was my job to be part of that 
strange world. One day during a firefight, I went into a tunnel 
after an enemy soldier. When I came out of the tunnel, I 
noticed this helicopter coming in. For some reason, I knelt 
down on the ground and watched this Dustoff crew come in and 
pick up the wounded and fly off. I remember wondering, why 
bother?
    Like I said, I was wounded on my 21st birthday, hit by a 
rocket-propelled grenade that left pieces of me literally all 
over the battlefield. I fully accepted the fact that my life 
was going to end that predawn morning. As I was telling my 
loved ones goodbye, the ground medics told me I was being 
medivaced. I told them they were crazy, the site was too hot. 
For the rest of my life, I will never forget the whopping sound 
of the Huey's blades and the sight of the spotlight clearing 
the tree line. As the Huey got closer, I could see sparks 
flying everywhere, as countless small arms rounds hit the 
helicopter. I remember thinking; there is no way any of these 
guys are going to make it. I honestly thought the helicopter 
would be shot down, and we would all die.
    But somehow, through all of the gunfire, they got in. I 
remember seeing these beautiful angels pick me up and take me 
aboard. I remember the pinging of the bullets ripping through 
the skin of the Huey and hearing the crew excitedly, yet 
calmly, talking to one another. Then I saw this face above me 
saying, ``Buddy, stay with me. Hey, Buddy, you are going to be 
all right.'' Over and over again I would drift in and out of 
consciousness, and all I can recall is this bloody face telling 
me I was going to make it.
    When I came to, this nurse asked me if I would like 
company. Something happened that will live with me for the rest 
of my life. The entire Dustoff crew was in the hospital with 
me. The guys that saved my life, the young boys that rescued me 
themselves had been wounded. The blood on the air medic's face 
was not mine; it was his. A bullet had gone through his cheek, 
and rather than tend to his own wounds, he kept me alive.
    There are no words to tell you how I feel about Dustoff. 
You can hear and read all of the stories you want, but nothing 
replaces what I have gone through. These young fellows went 
into the path of all of those bullets to save my life, someone 
they did not even know. I cannot think of one reason why a 
Dustoff crew would put their lives on the line time and time 
again, other than what one of the crew members told me when I 
asked. He said, ``That is our job.'' We, in the infantry, when 
we come under fire, we can hug the ground a little closer. A 
Dustoff crew, when they come under fire, has nothing but air to 
hug. You want to know what heroes look like, look at a Dustoff 
crew.
    I visited the Wall today for the first time. The only 
reason my name is not on that sacred site is a Dustoff crew 
risked all their lives to save mine. Think of the thousands of 
lives that have been saved over the years because Dustoff crews 
were ``doing their job.''
    I will probably never know the names of the Dustoff crew 
that saved my life, but I can honor them today by joining my 
voice with Mike Novosel and John Travers and ask this committee 
to make sure the Dustoff crews are awarded the Combat Medic 
Badge.
    Thank you for your time.
    [The prepared statement of Mr. Castleberry follows:]

      Prepared Statement of William Frederick ``Fred'' Castleberry

    Good afternoon Senator Specter and all the members of the 
Committee:
    Please know that I am extremely honored to be here. In 1965, while 
stationed at Ft. Lee, VA, I visited our Nation's Capitol. At that time, 
I never dreamed I would some day visit here on Capitol Hill. However, 
once I heard the details about this hearing, I knew I had to be here. I 
thank you for the privilege to testify before a committee as important 
as this one.
    The Fred Castleberry that went to Vietnam was much different from 
the one that came home. The injuries that my body suffered are plain to 
see. I lost my right arm and left leg and the partial use of my other 
arm and leg.
    However, I'm not here to talk about Fred Castleberry any more than 
I have to; what I am here to talk about is the fact that I am here at 
all, and how I got out of a very bloody jungle on the day I turned 21.
    Prior to going to Vietnam I was a Drill Sergeant. I tried to 
prepare the recruits for what they would face in war. But like anyone 
else who has never been in combat, I truly did not have a clue. There 
is no manual that can prepare you for the paralyzing fear that grips 
you when bullets go whizzing by your head. There is no veteran's 
account that can accurately describe what it's like to watch the life 
drain from someone who just moments before was so young and full of 
life.
    In combat, everywhere you look there is death and destruction. 
Unfortunately it was my job to be part of that strange world. One day 
during a firefight I went into a tunnel after an enemy solider. When I 
came out of the tunnel, I noticed this helicopter coming in. For some 
reason I knelt on the ground and watched this Dustoff crew come in and 
pick up the wounded and fly off. I remember thinking, why bother.
    Like I said, I was wounded on my 21st birthday, hit by a rocket-
propelled grenade that left pieces of me--literally--all over the 
battle field. I fully accepted the fact that my life was going to end 
that predawn morning. As I was telling my loved ones goodbye, the 
ground medics told me I was being medivaced. I told them that they were 
crazy, the site was too hot. For the rest of my life I will never 
forget the whopping sound of the Huey's blades and the sight of that 
spotlight clearing the tree line. As the Huey got closer I could see 
sparks flying everywhere as countless small arms rounds hit the 
helicopter. I remember thinking; there is no way any of those guys will 
make it. I honestly thought the helicopter would be shot down and we 
would all die.
    But somehow, through all the gun fire, they got in. I remember 
seeing these beautiful angels pick me up and take me aboard. I remember 
the pinging of bullets ripping through the skin of the Huey and hearing 
the crew excitedly, yet calming, talking to one another and then I saw 
this face above me. This face had blood all over it and it was saying 
to me, ``Buddy, stay with me. Hey Buddy, you're going to be all 
right.'' Over and over again I would drift in and out of consciousness 
and all I can recall is this bloody face telling me I was going to make 
it.
    When I came to a nurse asked me if I felt like company. Something 
happened that will live with me the rest of my life, the Dustoff crew 
was in the hospital with me. The guys that saved my life, the young 
boys that rescued me, themselves had been wounded. The blood on the air 
medic's face was not mine. It was his. A bullet had gone through his 
cheek, but rather than tend to his own wounds, he kept me alive.
    There are no words to tell you how I feel about Dustoff. You can 
hear and read all the stories you want, but nothing replaces having 
gone through what I did. These young fellows went into the path of all 
those bullets to save my life, someone they didn't even know. I cannot 
think of one reason why a Dustoff crew would put their lives on the 
line time and time again, other than what one of the crew members told 
me when I asked. ``That's our job.'' We in the Infantry, when we come 
under fire we can hug the ground a little closer. A Dustoff crew when 
they come under fire has nothing but air to hug. You want to know what 
heroes look like, look at a Dustoff crew.
    I visited the Wall today for the first time. The only reason my 
name is not on that sacred site is a Dustoff crew risked all their 
lives to save mine. Think of the thousands of lives that have been 
saved over the years because Dustoff crews were, ``Doing their job.'' I 
will probably never know the names of the Dustoff crew that saved my 
life, but I can honor them today by joining my voice with Mike Novosel 
and John Travers, and ask this Committee to make sure the Dustoff crews 
are awarded the Combat Medic Badge. Thank you for your time.

    Chairman Specter. Thank you very much, Mr. Castleberry.
    Our final witness on this panel is Lieutenant General John 
Le Moyne, who has an extraordinary record. He served in 
Vietnam, Germany, Saudi Arabia, Operation Desert Storm, 
Operation Desert Shield, and is now the Army's deputy chief of 
staff. He rose in the ranks from a buck private and a buck 
sergeant to be the deputy chief of staff of the Army, a 
remarkable accomplishment.
    I think you have your toughest assignment today, General Le 
Moyne, explaining why Dustoff personnel ought not to be 
entitled to a Combat Medical Badge, considering that they were 
in combat and the risks they undertook.

STATEMENT OF LIEUTENANT GENERAL JOHN M. Le MOYNE, DEPUTY CHIEF 
                    OF STAFF, G1, U.S. ARMY

    General Le Moyne. Mr. Chairman and Senator Murray, thank 
you for this opportunity to appear before your committee. Sir, 
my emotions are with you, but I am a professional soldier, and 
I will try to state the factual basis until the end of my 
comments to you.
    As you said, I am a veteran of Vietnam and two other wars, 
and I want to express my deepest gratitude to these men to my 
right who served so nobly. They did not go North, and they did 
not hide in school.
    The Army knows the challenges of the Vietnam conflict and 
what it means to these brave soldiers to be recognized. We 
began sending troops to Vietnam in the 1950's, and almost three 
million American service members were sent to fight over that 
time period. Over 80 percent of all combat deaths in Vietnam 
were infantrymen. We recognize and know the combat medics could 
be counted on to save lives under the most arduous conditions, 
often at the cost of losing their own life.
    In March of 1945, the War Department established what is 
now known as the Combat Medical Badge. The original intent of 
awarding this prestigious badge, and our current policy, was 
that it could be awarded to all persons of the Medical 
Department assigned or attached to a medical unit with infantry 
units, and its evolution stemmed from the requirement to 
recognize combat medics who shared the same hazards and 
hardships of ground combat on a day-to-day basis with infantry 
soldiers.
    The Combat Medical Badge was created as a companion badge 
to the Combat Infantry Badge, with criteria for its award 
intended to parallel that of the Combat Infantry Badge. It was 
designated to provide recognition to the field medic who 
accompanies infantrymen into battle, shares with him the day-
to-day experiences and the hardships unique to combat duty in 
the field under combat conditions.
    The sole criteria that qualify medical personnel for award 
of the CMB is to be assigned or attached to a ground combat 
unit engaged in active combat. Medical personnel, other than 
those medics organic to these units, may qualify only if they 
serve as medical personnel accompanying those units.
    As recently as 1987, the Army created a completed a review 
of all of the criteria for award of the CMB to aeromedical 
crews. The results of this review confirmed that the criteria 
should stand as originally intended; to recognize those aidmen 
who share the same hazards, hardships, and deprivations of 
ground combat on a daily basis with combat soldiers. This is 
not a bureaucracy, sir. This is maintaining the original intent 
of the CMB standards.
    In February of 2003, the Army confirmed their 1987 
decision, that the criteria should remain unchanged. The 
awarding of this badge, in and of itself to those medics who 
serve with and are in the line of fire with infantrymen, does 
not take away from the outstanding contributions of aeromedical 
crews performing medical recovery missions.
    These veterans here today are examples of the esteem and 
respect that we have for medical and aerovac personnel. That is 
exemplified by their aviation wings, their air medals and 
Distinguished Flying Crosses. The Army has a long history of 
recognizing its heroes by presenting awards and decorations. 
During the Vietnam conflict, over two million combat awards 
were presented for service, for achievement and for heroism.
    As our combat soldiers have been recognized in the past, we 
will continue to uphold the same traditions of awarding and 
recognizing our finest.
    Sir, thank you again for the opportunity to appear before 
you today, and I am available for questions.
    [The prepared statement of General Le Moyne follows:]

      Prepared Statement of Lieutenant General John M. Le Moyne, 
                  Deputy Chief of Staff, G1, U.S. Army

    Mr. Chairman and distinguished members of the Committee, on behalf 
of the outstanding soldiers of the United States Army past and present, 
thank you for this opportunity to appear before this committee today to 
give you an overview of The Army's procedure awarding the Combat 
Medical Badge. As a Vietnam Veteran and a soldier now serving during 
another war, I want to express my deepest gratitude for those men and 
women who served so nobly during the Vietnam Conflict. I want to thank 
you, as a committee, for keeping the needs and concerns of not just 
these veterans but all veterans at the forefront of America's 
consciousness. Most importantly, I want to express my deep gratitude 
for your Congressional support and assistance, which has assured 
continuing major successes and achievements for all Veterans.
    In the 1950's, the United States began to send troops to Vietnam, 
during the following 25-year period, the ensuing war would evoke some 
of the strongest emotions in United States history. Almost 3 million 
men and women were sent thousands of miles to fight for what we 
continue to fight for today, freedom. In total it is estimated that 
over 2.5 million people on both sides lost their lives. In this war, as 
in wars before and after the combat medic served along side his 
infantry counterparts. The Army has a long history of recognizing its 
heroes by presenting awards and decorations. Today, I would like to 
specifically discuss with you the Army's Combat Medical Badge (CMB), 
the original intent and our current policy of awarding this prestigious 
badge not just to soldiers, but eligible sailors, airmen and marines.

                                HISTORY

    Originally established as the Medical Badge, the Combat Medical 
Badge was created by the War Department on 1 March 1945. It could be 
awarded to officers, warrant officers, and enlisted men of the Medical 
Department assigned or attached to the medical detachment of infantry 
regiments, and infantry battalions. Its evolution stemmed from a 
requirement to recognize medical aidmen who shared the same hazards and 
hardships of ground combat on a daily basis with the infantry soldier. 
Though established almost a year and a half after the Combat 
Infantryman's Badge CIB, it could be awarded retroactively to December 
7, 1941 to fully qualified personnel.
    Like the CIB, the Regimental Commander was the lowest level at 
which the CMB could be approved and it also carried with it a separate 
provision for enlisted badge holders to receive a $10 per month pay 
stipend. Additionally, the CMB could be awarded to Medical Department 
personnel assigned or attached to Infantry units of Allied Forces when 
the duties performed were identical with those performed by medical 
personnel assigned or attached to U.S. Forces. The CMB could also be 
awarded to U.S. Navy and U.S. Air Force medical personnel provided they 
met all the requirements of Army medics.
    Effective 20 December 1989, special forces personnel possessing 
Military Occupational Specialty 18D (Special Operations Medical 
Sergeant) became qualified to receive the CMB provided they were 
otherwise qualified. Also, in 1991, the Chief of Staff, Army authorized 
a limited expansion of CMB eligibility to include medical personnel 
assigned or attached to armor and ground cavalry units provided they 
met all other qualifying criteria. This expansion was retroactive to 17 
January 1991 to cover the period of Operation DESERT STORM.

                                 INTENT

    The CMB was created as a ``companion'' badge to the CIB with 
criteria for its award intended to parallel that of the CIB. It was 
designed to provide recognition to the field medic who accompanies the 
infantryman into battle and shares with him the experiences unique to 
the infantry in combat. There was never any intention to award the CMB 
to all medical personnel who serve in a combat zone or imminent danger 
area, that is, a division-level medical company supporting a maneuver 
brigade.
    As with the CIB, the infantry unit to which the medical personnel 
are assigned or attached must engage the enemy in active ground combat. 
Since inception, the intent of the Department of the Army regarding 
this requirement has been that medical personnel must be personally 
present and under fire in order to be eligible for the awarding of the 
badge. So stringent was this requirement during the Vietnam era that 
recommending officials were required to document the place (in six 
digit coordinates), time, type, and intensity of fire to which the 
proposed recipient was exposed. This fact naturally precludes the 
awarding of the badge to those medical personnel who accompany infantry 
units into a potential engagement area but do not come under enemy 
fire.
    Over the years, there has been some confusion concerning the phrase 
``. . . in direct support of an infantry unit . . .'' The CMB is 
intended for, and awarded to, those medical personnel who accompany the 
infantryman into combat. The Army has never approved of deviations from 
this purpose and its restrictive criteria. During the World War II era, 
medical support for infantry units in combat was provided by the 
medical detachments and companies of battalions and regiments. These 
medical personnel and units were termed direct support. This concept 
lasted until Vietnam. Today, medical personnel are assigned as organic 
personnel to infantry companies and are regarded as participants as 
opposed to being categorized as those providing direct medical support. 
For example medical personnel serving in division-level medical 
companies, ground ambulance and medical clearing companies, mobile-Army 
surgical hospital (MASH), combat-support hospital (CSH), and field 
hospitals, and aeromedical evacuation units are not eligible for the 
CMB. The sole criteria which qualifies medical personnel for award of 
the CMB is to be assigned or attached to an infantry unit engaged in 
active ground combat. Medical personnel other than those medics organic 
to infantry units may qualify only if they serve as medical personnel 
accompanying infantrymen. Conceivably, this could occur if an infantry 
unit lost all its medics and as a temporary or permanent measure, 
medical personnel were attached to an infantry unit, but remained 
assigned to a hospital or other non-infantry unit.

                   SPECIFIC ELIGIBILITY REQUIREMENTS

    The following medical personnel, assigned or attached by 
appropriate orders to an infantry unit of brigade, regimental, or 
smaller size, or to a medical unit of company or smaller size, organic 
to an infantry unit of brigade or smaller size, during any period the 
infantry unit is engaged in actual ground combat, are eligible for 
award of the CMB, provided they are personally present and under fire 
during such ground combat:
    (a) Subsequent to December 6, 1941.--Army Medical Department 
(colonels and below), the Navy Medical Department (captains and below), 
the Air Force Medical Service (colonels and below), assigned or 
attached to the Army, who have satisfactorily performed medical duties 
are eligible for the CIB.
    (b) Subsequent to December 19, 1989.--Special Forces personnel 
possessing military occupational specialty 18D (Special Operations 
Medical Sergeant) who satisfactorily performed medical duties while 
assigned or attached to a special forces unit during any period the 
unit is engaged in actual ground combat, provided they are personally 
present and under fire. Retroactive awards are not authorized.
    (c) Subsequent to January 16, 1991.--Personnel assigned or attached 
to armor and ground cavalry units of brigade or smaller size, who 
satisfactorily perform medical duties while the unit is engaged in 
actual ground combat, provided they are personally present and under 
fire, were awarded the badge. Retroactive awards are not authorized.
    (d) Awards will not be made to general or flag officers.
    Presently, a separate award of the CMB has been authorized for 
qualified soldiers who served in World War II, the Korean War and the 
Vietnam conflict. However, service in the Republic of Vietnam conflict 
combined with qualifying service in Laos, the Dominican Republic, Korea 
on the DMZ, Grenada, Panama and the Persian Gulf War is recognized by 
one award only regardless of whether a soldier has served one or 
multiple tours in any of these areas.

                REPUBLIC OF VIETNAM--SPECIAL PROVISIONS

    Subsequent to March 1, 1961, a soldier must have been assigned to a 
Vietnamese unit engaged in actual ground combat or as a member of a US 
Army infantry unit of brigade or smaller size, including Special Forces 
Detachments, serving with a Republic of Vietnam unit engaged in actual 
ground combat. The Republic of Vietnam unit must have been of 
regimental size or smaller and either an infantry, ranger, infantry-
type unit of the civil guard, infantry-type unit of the self-defense 
corps, or of the irregular forces. The soldier must have been 
personally present and under hostile fire while assigned as specified.

                                  LAOS

    In order for a soldier to receive the CMB for service in Laos, he 
must have been assigned as a member of a White Star Mobile Training 
team while the team was attached to or working with a unit of 
regimental (group mobile) or smaller size of Forces Armee du Royaume 
(FAR), or with irregular-type forces of regimental or smaller size. 
Also, the soldier could have been a member of MAAG, Laos assigned as an 
advisor to a region or zone of FAR, or while serving with irregular 
type forces of regimental or smaller size. Most importantly, the 
soldier must have been under hostile fire while assigned to those 
units.
    In 1987, the Office of the Surgeon General of the Army (OTSG), in 
concert with the Army's Military Awards Branch, completed a review of 
the criteria for award of the CMB to aeromedical pilots. The results of 
the review confirmed that the criteria should stand as originally 
intended, to recognize those aidmen who share the same hazards and 
hardships of ground combat on a daily basis with the infantry soldiers. 
In February 2003, the OTSG confirmed their 1987 decision, that the 
criteria should remain unchanged.
    Medical units, other than infantry who are required to perform 
temporary, duties similar to some infantry duties are not eligible for 
the CMB. Other soldiers who fight similar to infantry soldiers are 
likewise ineligible for Combat Infantryman Badge (CIB). The sole 
criteria that qualifies medical personnel for award of the CMB is to be 
assigned or attached to an infantry unit engaged in active ground 
combat.

                               CONCLUSION

    The objective of the Department of the Army Military Awards Program 
is to provide tangible recognition for acts of valor, exceptional 
service or achievement, special skills or qualifications and acts of 
heroism not involving actual combat. During the Vietnam conflict more 
than 2.8 million combat awards were given and 16,083 CMB's were 
awarded. As our soldiers, sailors, airmen and marines have fought and 
been recognized in the past, we will continue to uphold the same 
traditions of awarding and recognizing our finest. We are hopeful that 
your support and assistance will continue as we demonstrate our 
commitment to taking care of soldiers past and present.
    Once again thank you for the opportunity to appear before you 
today.

    Chairman Specter. General Le Moyne, the panel will question 
you in 3-minute rounds.
    General Le Moyne, what is the rational basis for saying 
that medical personnel accompanying ground combat units will be 
eligible for the Combat Medical Badge, but Dustoff crews who 
undertake precisely the same risks, in precisely the same way, 
will not be similarly eligible?
    General Le Moyne. Sir, it is not precisely the same risk 
nor precisely the same way. That ground medic assigned to that 
infantry unit is there every day for a year, shivering, 
freezing, hungry and scared, 24 hours a day.
    Chairman Specter. But the Dustoff troops may be there for 
the same amount of time, doing the same shivering, undertaking 
the same risks.
    General Le Moyne. Sir, their risk is not on the same 
extended time period in the same combat environment, the same 
unknowns. They do come into a hot LZ upon occasion, and all of 
us recognize the value they bring for saving our lives, but 
they are not there day-to-day.
    Chairman Specter. In the light of the testimony of Mr. 
Castleberry, outlining how these men saved his life and risked 
their own, what more can be asked of military personnel to 
qualify for the Combat Medical Badge?
    I think you have got a distinction here without a 
difference, General.
    General Le Moyne. Sir, I disagree. Any of these medics 
could have served with us in the field for an extended period 
of time for 30 days.
    Chairman Specter. You have Colonel Novosel, so anxious to 
join and get back to that risk that he comes back at a vastly 
lower rank. He wins the Congressional Medal of Honor, but he is 
not entitled to the Combat Medical Badge?
    General Le Moyne. But, sir----
    Chairman Specter. It seems to me, General, to be a grave 
injustice.
    General Le Moyne [continuing]. But, sir, we have recognized 
him in other ways, with his aeromedical wings, with his 
Distinguished Flying Cross and his air medals, which combat 
medics in the field do not earn.
    Chairman Specter. But he is a second-class citizen if he 
cannot qualify for the Combat Medical Badge.
    General Le Moyne. Sir, I disagree. He is not a second-class 
citizen by any stretch of the imagination.
    Chairman Specter. Senator Murray.

 OPENING STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR FROM THE 
                      STATE OF WASHINGTON

    Senator Murray. Well, thank you very much, Mr. Chairman.
    Let me thank all the courageous people who have come to 
testify on this issue before us and for your having this 
important hearing I think for us to perhaps right an injustice 
that appears to be there, and I want to work with you on trying 
to solve this problem.
    I do not have any specific questions for these witnesses at 
this time, but I would like to work with you, Mr. Chairman, to 
try and solve this.
    Let me just ask if I can make an opening statement at that 
time.
    But, again, thank you for coming today and for giving us 
your testimony.
    Chairman Specter. Well, thank you, Senator Murray.
    General Le Moyne, to give you an opportunity to explain 
just a little further, is your basic point that a medic has to 
serve for 1 year as medical personnel accompanying a ground 
combat unit in order to qualify for the Combat Medical Badge?
    General Le Moyne. Not a full year, sir. We have criteria 
that allows them to volunteer for duty and be attached for up 
to 30 days.
    Chairman Specter. For 30 days?
    General Le Moyne. Yes, sir. Then we added criteria that 
says that there must be an exchange of gunfire.
    Chairman Specter. There must be?
    General Le Moyne. An exchange of gunfire.
    Chairman Specter. An exchange of gunfire.
    General Le Moyne. Truly a combat situation.
    Chairman Specter. Well, the Dustoff people are confronted 
with gunfire.
    General Le Moyne. They clearly are.
    Chairman Specter. So they would meet that criterion.
    General Le Moyne. Yes, sir, they do.
    Chairman Specter. Are some of them not engaged for a period 
of 30 days?
    General Le Moyne. Not in continuous combat, no, sir.
    Chairman Specter. Well, in aggregate combat?
    General Le Moyne. It could be, sir, over a long period of 
time.
    Chairman Specter. Well, 30 days are 30 days. How relevant 
is it whether it is a continuous 30 days in a row or 30 days 
over a longer period of time?
    General Le Moyne. Sir, the primary difference is that the 
medivac pilot will go home at night or sometime during the day. 
Your combat medic in the field will not. He will never get a 
hot shower, he will never get a hot meal, he will never have 
clean sheets, and he will never go to a club.
    Chairman Specter. What do you think about that, Mr. 
Novosel? Is the general making a reasonable, rational 
distinction between the two categories of medics?
    Chief Warrant Officer Novosel. Let me just qualify my 
disagreement with the general.
    It has been said that the combat medic is out in the field 
continuously, and while the battle goes on, I am sure he is in 
that position, but it has been my experience, since I also 
lived with the infantry for 3 and 4 days at a time----
    Chairman Specter. Did you get to go home every night?
    Chief Warrant Officer Novosel. I know what----
    Chairman Specter. Excuse me. Did you get to go home every 
night and have a hot shower?
    Chief Warrant Officer Novosel. No. No, I would be out there 
getting my boots muddy just the same as they did. Of course, 
after being out there for 3 or 4 days, you know, you are 
fighting the fact that you might get malaria. Your crew then 
buttons up inside the helicopter. I loved my crewmen, but they 
gave me, after so many days out there--and I would have to 
sleep underneath the helicopter on one of the litters, and I 
found it to be an enjoyable way of----
    Chairman Specter. Colonel Novosel, how many days were you 
in combat as a Dustoff pilot?
    Chief Warrant Officer Novosel. Sir, I flew, in 1 year, 
1,407 hours. That is 4 hours a day, 365 days.
    Chairman Specter. You were out there every day of the year?
    Chief Warrant Officer Novosel. Almost. If I averaged 4 
hours a day, that is just the time in the air. Think of what 
that meant----
    Chairman Specter. How frequently were you there overnight?
    Chief Warrant Officer Novosel. Oh, quite frequently. Quite 
frequently.
    Chairman Specter. Mr. Travers, what is your view as to 
General Le Moyne's classification?
    Chief Warrant Officer Travers. Senator, I think it needs to 
be understood--I was hoping a gentleman would be here today--
but he is in Alaska working for the Government--who did three 
tours as a Green Beret, and then went to flight school and was 
a Dustoff pilot. He would be glad to testify to you that as a 
special forces on the ground in Vietnam, the contacts they 
would run into would be possibly as many as four times in a 
week. The firefights would be violent, but they would break 
within an hour or two, and the enemy would disappear.
    Chairman Specter. Of your own personal activities, how 
frequently did you serve and stay overnight without having 
access, as the general puts it, to a hot shower?
    Chief Warrant Officer Travers. There were many times, if 
you were--what you have to understand, Senator, is we had a 
limited number of aircraft. So we supported all of the infantry 
units throughout the country. So there were times you would be 
out there for 3, 4, or 5 days living in a tactical operations 
center or out in the field deployed because it was quicker to 
be able to respond.
    The other thing I want to make a point of is I will not say 
every day, many times it would be booby traps and multiple 
shrapnel wounds of that nature, but on an average, I would say 
at least three to four times a day our crews came under direct 
enemy fire--every day, every day because they were going to 
where the firefight was. That was their mission.
    Chairman Specter. Well, General, we are dealing here with a 
badge which is denominated Combat Medical Badge. Is there any 
doubt that these Dustoff men were in a medical unit?
    General Le Moyne. No, sir, there is no doubt at all.
    Chairman Specter. Is there any doubt that they were in 
combat?
    General Le Moyne. No, sir, there is no doubt at all.
    Chairman Specter. In light of the risks they undertook, 
described by Fred Castleberry, is there any doubt they are 
entitled to recognition, which you might characterize as a 
badge?
    General Le Moyne. Sir, I would say, yes, and we have done 
that.
    Chairman Specter. Mr. Novosel, what is your view of the 
general's comment that you are recognized in other ways? He 
might ask if the Congressional Medal of Honor is not sufficient 
recognition for you, without another badge.
    Chief Warrant Officer Novosel. Sir, I flew----
    Chairman Specter. He did not ask you that, but he might 
have.
    General Le Moyne. No, sir, I would not.
    Chairman Specter. I withdraw the question because the 
general would not ask that.
    Chief Warrant Officer Novosel. I was just going to say that 
it was my privilege to----
    Chairman Specter. Do you want to answer the question?
    [Laughter.]
    Chairman Specter. Go ahead, sir.
    Chief Warrant Officer Novosel. I was just, in my own way, I 
was going to answer it by saying to you that I flew 2,500 
missions, evacuated 5,589. Now, you know by looking at me, you 
can see that I could not have done that by myself. It was done 
by those people behind me. They flew those same missions, those 
same 2,500 missions. They were with me for those 1,400 hours. 
Now, this is a terrific physical burden to endure, and I assure 
you that when my year was up, I was a physical wreck, and I was 
not 46, by the way. I was 48.
    [Laughter.]
    Chief Warrant Officer Novosel. I was 46 when I----
    Chairman Specter. Senator Thurmond was on this committee 
for many years.
    [Laughter.]
    Chairman Specter. And----
    Chief Warrant Officer Novosel. I know the gentleman.
    Chairman Specter. He was in combat in his forties. If he 
were here, I think he would say do not make too big a fuss 
between 48 and 46.
    [Laughter.]
    Chairman Specter. He did not make much of a fuss between 98 
and 96.
    [Laughter.]
    Chief Warrant Officer Novosel. I am still trying for his 
record.
    Chairman Specter. Well, we thank you.
    When I heard about this issue, about what the Dustoff 
personnel had done, I was frankly surprised that they were not 
accorded the Combat Medical Badge because of the risks 
undertaken.
    I commend you, General Le Moyne. You have an outstanding 
record, and you are a good soldier, and I think you presented a 
good presentation, even though I would not want to characterize 
the strength of your case. You are a lot stronger general and 
soldier than the case which you have been asked to present.
    But my sense is that this ought to be submitted to the 
Congress of the United States. We do not disagree with the 
Department of Defense too often, and in my tenure here, I have 
been one of your strongest supporters in backing a strong 
defense. The Department of Defense has done a phenomenal job.
    I reminisced with the general for just a moment before we 
started about the first soldier I knew. He was my father, and 
he was a buck private, I am a little awed at seeing a general, 
especially one who also had been a buck private.
    My brother served in World War II, and I served during the 
Korean War, stateside, and what a phenomenal job the men and 
women of the fighting forces have done, especially in Iraq. As 
we sit here today in the calm surroundings of this Senate 
hearing room, they are risking their lives and giving their 
lives, regrettably, daily.
    I had a chance to travel with the President yesterday. He 
went to Pittsburgh for a National Urban League Convention, and 
I note that you, General Le Moyne, were trained at Shippensburg 
State College. So you have got a Pennsylvania connection, too. 
When the President goes to Pennsylvania, he asks that Senator 
Santorum and I go with him. In talking with the President about 
the contribution of individual soldiers in Iraq, my own 
personal view is that we are not being generous when we 
recognize the contributions of the men and women who are in our 
fighting forces. I think our generosity and our thanks is 
something that they really deserve.
    So I had intended to introduce legislation on this subject, 
but I thought I would await this hearing. I think whether these 
men should be awarded the Combat Medical Badge is something 
that the Congress of the United States ought to decide and then 
the Commander in Chief will have a chance to decide whether he 
agrees with the Congress or not.
    Well, thank you all very much for coming gentlemen. We very 
much appreciate your testimony.
    General Le Moyne. Sir, thank you.
    Mr. Castleberry. Thank you, sir.
    Chief Warrant Officer Travers. Thanks.
    Chief Warrant Officer Novosel. Thanks.
    [Whereupon at 4:44, the committee was adjourned.]
  

                                  <all>

</pre></body></html>
